                                          Office of Inspector General
                                          U.S. Small Business Administration


                                                                                          March 2011 Update



  Business Loan Programs                                              subject and to make payments on the SBA-guaranteed
                                                                      loans of other individuals and business entities. This was
  Korean National Pleads Guilty                                       a joint investigation with the FBI.
  On March 1, 2011, in U. S. District Court, District of
  New Jersey, a loan broker was charged via a criminal                Review of America’s Recovery Capital Loans
  Information and pled guilty to one count of conspiracy to           On March 2, 2011, the OIG issued a report on the results
  commit bank fraud. The subject was a member of an                   of an audit of America’s Recovery Capital (ARC) loans
  organized group of Korean nationals that had obtained               disbursed pursuant to the American Recovery and
  credit cards and loans from various lending institutions            Reinvestment Act of 2009 (Recovery Act). A review of
  using false identities, documents, and business names.              a sample of 120 of 4,559 ARC loans approved between
  The defendant obtained or brokered 28 loans from                    June 1, 2009 and January 31,2010, with gross loan
  various financial institutions for fictitious businesses            approvals totaling approximately $148 million and at
  totaling approximately $1.5 million. Current losses on              least one disbursement as of January 31,2010, identified
  these loans are approximately $1.1 million. This is a               material origination and closing deficiencies in 56 of the
  joint investigation with the Internal Revenue Service,              loans reviewed, resulting in inappropriate loan approvals
  Criminal Investigations Division, and the Englewood                 of approximately $1.8 million. The OIG found that
  New Jersey Police Department.                                       documentation in the loan files was inadequate to ensure
                                                                      borrowers: (1) were viable small businesses, (2) used
  Missouri Man Pleads Guilty to False Statements                      ARC loan proceeds for existing qualifying small business
  On March 3, 2011, a Missouri man pled guilty to a                   loans, and/or (3) experienced financial hardship. As of
  Superseding Information charging him with one count of              December 22, 2010, the identified deficiencies posed a
  making false statements for the purpose of influencing              $1.6 million risk of loss to the SBA, calculated as SBA’s
  the SBA and one count of aiding and abetting in the                 share of the outstanding loan balance or the deficiency
  Western District of Missouri. According to the                      amount, whichever was less.
  Superseding Information, two individuals established a
  corporation in another person’s name and recruited this             Projecting the audit results to the universe of 4,559 loans,
  person to obtain a $175,070 loan. The two individuals               the OIG estimated that 2,228 ARC loans made between
  paid the subject $7,500 for obtaining the loan and used             June 1, 2009 and January 31, 2010, with at least one
  the remainder of the loan proceeds for personal expenses            disbursement as of January 31, 2010, were not originated
  and to pay the outstanding debt of a third party. This is a         and closed in compliance with SBA's policies and
  joint investigation with the Federal Bureau of                      procedures, resulting in approximately $66.5 million in
  Investigation (FBI).                                                inappropriate loan approvals.
                                                                      In order to address the loan deficiencies, the OIG
  Real Estate Agent Sentenced                                         recommended that SBA flag all 56 loans to ensure the
  On March 31, 2011, a former real estate agent was                   deficiencies are properly addressed should the loans
  sentenced in the Western District of Missouri to 5 years            default and be submitted for purchase. We also
  probation and a $100 special assessment fee. The subject            recommended that SBA notify the OIG of any denials,
  had previously pled guilty to one count of making false             repairs, withdrawals, or cancellations of SBA’s
  statements for the purpose of influencing the SBA. The              guaranties made as a result of the deficiencies identified
  investigation revealed that the subject was approached by           during purchase review. Further, we recommended that
  an individual associated with a consulting firm and asked           SBA notify the loan servicing center responsible for
  to provide his financial information to the individual in           purchasing defaulted ARC loans of the high number of
  order to obtain a $125,085 loan. The loan was obtained              deficiencies identified and require the center to carefully
  and the proceeds were used to personally benefit the


Monthly Update on Activities of the SBA Office of Inspector General
review all ARC loans for compliance with SBA’s                        upon the SBA for a disaster home loan. The
requirements during its purchase review.                              investigation determined that the subject provided false
                                                                      residential, identification, and employment information,
To prevent the occurrence of similar deficiencies in other            as well as fraudulent supporting documentation when
SBA-approved loans, we recommended that SBA                           applying for disaster related assistance with the SBA, the
provide feedback to the SBA loan officers who approved                Federal Emergency Management Agency (FEMA), and
the ARC loans in which deficiencies were identified.                  the U.S. Department of Labor. As a result of these
Lastly, to ensure the proper estimation of improper                   applications, the subject received nearly $80,000 in
payments in the ARC loan program, we recommended                      disaster-related assistance, including a $40,000 SBA
that SBA notify the improper payment review team of                   loan. This was a joint investigation with the Department
the high rate of improper ARC loan guaranties identified              of Homeland Security (DHS) OIG and the Department of
during this audit.                                                    Labor OIG.

Disaster Loans                                                        Government Contracting & Business
                                                                      Development
Settlement Reached in NY Civil Complaint
On March 2, 2011, a husband and wife entered into a                   Effectiveness of the Small Business Administration’s
Stipulation and Order of Settlement and Dismissal in the              Surveillance Review Process
amount of $90,000 to settle charges filed against them in             On March 31, 2011, the OIG issued a report on the
a Civil Complaint in U.S. District Court for the Southern             results of a review of the effectiveness of SBA’s
District of New York. The settlement relates to a                     Surveillance Review Process. The OIG found that the
$198,000 SBA 9/11 Disaster Loan made to a now                         surveillance reviews conducted by the SBA in FY 2009
defunct New York City company owned by the husband.                   did not adequately assess the small business programs of
The charges against the couple related to the misuse of               contracting activities. The Agency did not use a
and false statements regarding the loan proceeds. The                 systematic and analytical process for establishing review
investigation revealed that $102,000 was transferred                  priorities to ensure reasonable coverage of the 3,285
from their business bank account into their personal bank             contracting activities. In some cases, the rationale for
account and used for non-business related expenses. The               selecting activities was unrelated to the factors outlined
couple has already paid $140,000 as part of a settlement              in the SOP and candidates that should have been
with the SBA during loan liquidation proceedings.                     considered were not recommended because of the limits
                                                                      placed on the number of contracting activities that each
Louisiana man sentenced                                               area office could recommend for review. Also, in
On March 3, 2011, in the Eastern District of Louisiana, a             selecting activities for review, the SBA did not consider
disaster loan recipient was sentenced to serve 78 months              information in anomaly reports, which are produced to
in prison; 3 years supervised release, and ordered to pay             identify discrepancies in small business reporting to
$245,197.17 in restitution and a special assessment fee of            FPDS. Lastly, although a major purpose of the
$600. The subject had falsified the address of his                    surveillance reviews is to monitor 8(a) delegated contract
primary residence during Hurricane Katrina when                       execution authority, little consideration was given to 8(a)
applying for an SBA disaster loan in the amount of                    activity in selecting procurement centers. The 30
$110,900 and a grant from the Louisiana Road Home                     surveillance reviews conducted in FY 2009 were also
Program (LRHP) in the amount of $150,000. The                         superficial, limited in scope, poorly documented, and
subject received both the SBA loan and the LRHP grant.                untimely, and thus were inadequate for making
The sentencing also incorporates penalties for additional             determinations about the effectiveness of the contracting
charges filed against the subject for unrelated offenses.             activities' small business programs or their compliance
This was a joint investigation with the FBI and the                   with small business rules.
Housing and Urban Development Office of Inspector
General.                                                              The teams conducting the surveillance reviews also did
                                                                      not consistently or sufficiently gather information needed
Disaster Loan Recipient Sentenced                                     to conduct their assessments and generally did not
On March 25, 2011, in U.S. District Court, Southern                   evaluate the extent to which small businesses complied
District of Texas, a Texas woman was sentenced to 5                   with the FAR performance of work requirements.
years probation, $79,478.58 in restitution, and a special             Consequently, teams may have missed deficiencies.
assessment fee of $100. She previously pled guilty to                 Teams also did not assess known problem areas and
knowingly making a material false claim against and                   poorly documented their reviews, leaving it unclear how



Update on the Activities of the SBA Office of Inspector General   2                                        March 2011
reported deficiencies were identified. Adequate                       Review of SBA Controls Over Cash Gifts
assessments were not made because management did not                  On March 18, 2011, the OIG issued a report on the
give priority or dedicate sufficient resources to conduct             results of a review of SBA controls over cash gifts. This
more than a minimal number of reviews, and review                     review was conducted in accordance with Section 4(g)(2)
teams were given wide discretion in determining the                   of the Small Business Act, which provides that any gift,
scope and content of reviews. As a result, the reviews                devise, or bequest of cash accepted by the SBA
were not effective as a monitoring tool for determining               Administrator be held in a separate account and subject
whether contracting activities complied with small                    to semi-annual audits by the Inspector General, who shall
business and 8(a) requirements.                                       report the results to Congress.

Finally, the SBA did not follow-up on prior                           The audit found that the SBA followed established
recommendations to ensure that deficiencies identified by             procedures for soliciting, accepting, holding and utilizing
surveillance review teams were corrected in a timely                  16 cash gifts totaling $23,050. The SBA substantially
manner. According to the SBA, a lack of staff resources               complied with the procedures stipulating that donors be
and competing priorities prevented the agency from                    properly vetted to assure that no conflict of interest
doing so.                                                             exists. The SBA also deposited cash donations and made
                                                                      the funds available to the Office of Advocacy for
Based on the collaborative efforts of the OIG and agency              expenditure. Lastly, the SBA expended Business
management, the SBA took steps to address some of the                 Assistance Trust (BAT) Funds for authorized purposes in
issues identified in the audit. To further assist the                 accordance with the Small Business Act and SBA
Agency in improving the quality of its surveillance                   guidelines.
review process, the OIG made 12 recommendations in
the report.

Agency Management                                                             This update is produced by the SBA OIG,
                                                                               Peggy E. Gustafson, Inspector General.
Quality of SBA’s Recovery Act Data on Public Websites
On March 22, 2011, the OIG issued a report on the                     The OIG has established an e-mail address, oig@sba.gov
results of a review of the effectiveness of the SBA’s                 that we encourage the public to use to communicate with
internal controls to ensure the quality of federal spending           our office. We welcome your comments concerning this
information made available to the public. The OIG                       update or other OIG publications. To obtain copies of
found that while Recovery Act contract award                                       these documents please contact:
obligations, Microloans, and Microloan technical
assistance grants were reported to Recovery.gov in a                                        SBA OIG
relatively accurate manner, the same information was                              409 Third Street SW., 7th Floor
materially underreported to USASpending.gov. Also,                                    Washington, DC 20416
information reported by recipients of SBA’s Recovery                                   E-mail: oig@sba.gov
Act funds contained erroneous and/or inaccurate                                  Telephone number (202) 205-6586
information and did not include sub-recipient                                      FAX number (202) 205-7382
information. Lastly, SBA’s Division of Procurement and
Grants Management (DPGM) officials did not provide                     Many OIG reports can be found on the OIG’s website
adequate oversight of the contractor it hired to perform
their data quality reviews.                                                http://www.sba.gov/office-of-inspector-general

The deficiencies occurred because the SBA did not have                     If you are aware of suspected waste, fraud, or
sufficient internal control processes to provide reasonable             abuse in any SBA program, please report it online at:
assurance that reported information was correct. As a
result, Recovery Act information was misleading and the                 http://www.sba.gov/office-of-inspector-general/2662
SBA was not compliant with (1) provisions of the
Federal Funding Accountability and Transparency Act of                   Or call the OIG Hotline toll-free at (800) 767-0385
2006 and (2) OMB guidance regarding the quality and
completeness of information reported on the use of
Recovery Act funds.




Update on the Activities of the SBA Office of Inspector General   3                                        March 2011
